<html>
<title> - Fighting Human Trafficking in Travel and Tourism: New Challenges and Solutions</title>
<body><pre>[Joint House and Senate Hearing, 115 Congress]
[From the U.S. Government Publishing Office]







115th Congress                                Printed for the use of the
2nd Session             Commission on Security and Cooperation in Europe
_________________________________________________________________________






                        Fighting Human Trafficking in
                           Travel and Tourism: New
                          Challenges and Solutions









[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                                  MAY 7, 2018
                                  
                                  





 Joint Briefing of the Commission on Security and Cooperation in Europe
                   and the Congressional Trafficking Caucus
_____________________________________________________________________________

                        Washington: 2018












            Commission on Security and Cooperation in Europe
                   234 Ford House Office Building
                       Washington, DC 20515
                          202-225-1901
                  <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c5a6b6a6a085a8a4aca9ebadaab0b6a0eba2aab3">[email&#160;protected]</a>
                                                    http://www.csce.gov
                                                          @HelsinkiComm

                                       Legislative Branch Commissioners

              HOUSE
CHRISTOPHER H. SMITH, New Jersey,    ROGER F. WICKER, Mississippi, 
Co-Chairman                          Chairman
ALCEE L. HASTINGS, Florida           BENJAMIN L. CARDIN, Maryland
ROBERT B. ADERHOLT, Alabama          JOHN BOOZMAN, Arkansas
MICHAEL C. BURGESS, Texas            CORY GARDNER, Colorado
STEVE COHEN, Tennessee               MARCO RUBIO, Florida
RICHARD HUDSON, North Carolina       JEANNE SHAHEEN, New Hampshire
RANDY HULTGREN, Illinois             THOM TILLIS, North Carolina
SHEILA JACKSON LEE, Texas            TOM UDALL, New Mexico
GWEN MOORE, Wisconsin                SHELDON WHITEHOUSE, Rhode Island


                    Executive Branch Commissioners


                         DEPARTMENT OF STATE
                         DEPARTMENT OF DEFENSE
                         DEPARTMENT OF COMMERCE
 
                                      III

                     



ABOUT THE ORGANIZATION FOR SECURITY AND COOPERATION IN EUROPE




    The Helsinki process, formally titled the Conference on Security 
and Cooperation in Europe, traces its origin to the signing of the 
Helsinki Final Act in Finland on August 1, 1975, by the leaders of 33 
European countries, the United States and Canada. As of January 1, 
1995, the Helsinki process was renamed the Organization for Security 
and Cooperation in Europe [OSCE]. The membership of the OSCE has 
expanded to 56 participating States, reflecting the breakup of the 
Soviet Union, Czechoslovakia, and Yugoslavia.
    The OSCE Secretariat is in Vienna, Austria, where weekly meetings 
of the participating States' permanent representatives are held. In 
addition, specialized seminars and meetings are convened in various 
locations. Periodic consultations are held among Senior Officials, 
Ministers and Heads of State or Government.
    Although the OSCE continues to engage in standard setting in the 
fields of military security, economic and environmental cooperation, 
and human rights and humanitarian concerns, the Organization is 
primarily focused on initiatives designed to prevent, manage and 
resolve conflict within and among the participating States. The 
Organization deploys numerous missions and field activities located in 
Southeastern and Eastern Europe, the Caucasus, and Central Asia. The 
website of the OSCE is: <www.osce.org>.

ABOUT THE ORGANIZATION FOR SECURITY AND COOPERATION IN EUROPE



    The Commission on Security and Cooperation in Europe, also known as 
the Helsinki Commission, is a U.S. Government agency created in 1976 to 
monitor and encourage compliance by the participating States with their 
OSCE commitments, with a particular emphasis on human rights.
    The Commission consists of nine members from the United States 
Senate, nine members from the House of Representatives, and one member 
each from the Departments of State, Defense and Commerce. The positions 
of Chair and Co-Chair rotate between the Senate and House every two 
years, when a new Congress convenes. A professional staff assists the 
Commissioners in their work.
    In fulfilling its mandate, the Commission gathers and disseminates 
relevant information to the U.S. Congress and the public by convening 
hearings, issuing reports that reflect the views of Members of the 
Commission and/or its staff, and providing details about the activities 
of the Helsinki process and developments in OSCE participating States.
    The Commission also contributes to the formulation and execution of 
U.S. policy regarding the OSCE, including through Member and staff 
participation on U.S. Delegations to OSCE meetings. Members of the 
Commission have regular contact with parliamentarians, government 
officials, representatives of non-governmental organizations, and 
private individuals from participating States. The website of the 
Commission is: <www.csce.gov>.

                                 [III]











              Fighting Human Trafficking in Travel and Tourism: 
                      New Challenges and Solutions

                               _________

                              May 7, 2018


                                                                          Page
                              PARTICIPANTS


Allison Hollabaugh Parker, General Counsel, Commission for Security 
and Cooperation in Europe .........................................          1

Hon. Christopher Smith, Co-Chairman, Commission for Security and 
Cooperation in Europe .............................................          2

Michael ``Mick'' McKeown, Blue Campaign Executive Director, U.S. 
Department of Homeland Security ...................................          3

Tracey Breeden, Director of Safety Communications, Uber ...........          4

Nancy Rivard, Founder and President of Airline Ambassadors ........          6

Carol Smolenski, Executive Director, End Child Prostitution and 
Trafficking-USA [ECPAT-USA] .......................................          8

Craig Kalkut, Vice President of Government Affairs, American Hotel 
& Lodging Association .............................................          1

Nick Shapiro, Global Head of Trust & Risk Management, Airbnb ......         13



                                  (IV)
                                  
                                  
.                                  
               Fighting Human Trafficking in Travel and Tourism:
                              New Challenges and Solutions



                              ----------                              




                              May 7, 2018


            Commission on Security and Cooperation in Europe 
              and the Congressional Trafficking Caucus 
                              Washington, DC


    The briefing was held at 3:02 p.m. in Room 485, Russell Senate 
Office Building, Washington, DC, Allison Hollabaugh Parker, General 
Counsel, Commission for Security and Cooperation in Europe, moderating.
    Panelists present: Allison Hollabaugh Parker, General Counsel, 
Commission for Security and Cooperation in Europe; Hon. Christopher 
Smith, Co-Chairman, Commission for Security and Cooperation in Europe; 
Michael ``Mick'' McKeown, Blue Campaign Executive Director, U.S. 
Department of Homeland Security; Tracey Breeden, Director of Safety 
Communications, Uber; Nancy Rivard, Founder and President of Airline 
Ambassadors; Carol Smolenski, Executive Director, End Child 
Prostitution and Trafficking-USA [ECPAT-USA]; Craig Kalkut, Vice 
President of Government Affairs, American Hotel & Lodging Association; 
and Nick Shapiro, Global Head of Trust & Risk Management, Airbnb.

    Ms. Parker. Good afternoon. Thank you all for joining us this 
afternoon for this briefing hosted by the Helsinki Commission for 
Security and Cooperation in Europe and by the Congressional Human 
Trafficking Caucus.
    My name is Allison Hollabaugh Parker. I'm general counsel for the 
Helsinki Commission as well as one of the coordinators for the 
Congressional Human Trafficking Caucus, both of which are co-chaired by 
Congressman Christopher Smith, who is with us today to open our 
briefing.
    Congressman Smith needs little introduction within trafficking 
circles. He has been fighting human trafficking for over two decades. 
He's the author of the Trafficking Victims Protection Act of 2000, as 
well as its 2003 and 2005 reauthorizations, as well as the most recent 
reauthorization that passed the House of Representatives just last year 
in July called the Frederick Douglass Trafficking Victims Prevention 
and Protection Act. It's H.R. 2200. To tell you more about that, here's 
Representative Smith. [Applause.]
    Mr. Smith. Thank you very much, Allison. And it is a privilege to 
be here, and I thank you for your leadership on human trafficking. It's 
been extraordinary for so many years, so I want to thank you for that, 
Allison.
    And I want to especially thank our distinguished panel, and the 
insights that we will glean from what they have to tell us this 
afternoon.
    I want to thank all of you for joining us today for this joint 
briefing. You know, according to the ILO--the International Labour 
Organization--human trafficking in the private economy generates about 
$150 billion in illegal profits per year. Sixteen million people are 
exploited in labor trafficking, according to the ILO; 4.8 million are 
exploited in sex trafficking; and approximately 4 million others are 
exploited in state-imposed trafficking. Women and girls--as we know so 
painfully well--women and girls account for 99 percent of sex 
trafficking and about 58 percent are victims of labor trafficking.
    The stories you will hear today show that it has been happening 
right under our noses. It's not just over there. It's in the United 
States. It's in every one of our congressional districts. And, of 
course, it is in other countries as well. And you will hear from 
people--these panelists--who are really on the front line in trying to 
mitigate and end this horrific cruelty.
    As Allison pointed out, in 1998 I introduced the comprehensive 
legislation that was signed into law in the year 2000 called the 
Trafficking Victims Protection Act. It was a very hard sell. There were 
a lot of people who thought it was a solution in search of a problem. 
When you talked trafficking to U.S. attorneys, they would say, oh, you 
mean drugs, right? And we'd say, no, we're talking about human beings, 
especially women, who are reduced to commodities for sale and for 
resale and exploitation over and over again. The legislation provided 
sheltering, political asylum, other protections for the victims, long 
jail sentences and asset confiscation for the traffickers, and tough 
sanctions for governments that failed to meet what we called minimum 
standards prescribed in the legislation.
    What is often forgotten is that it applies equally domestically. 
The legislation codified very strong jail sentences and asset 
confiscation for traffickers here in the United States. For example, on 
April 19th, the indictment of Allison Mack of the TV series 
``Smallville'' and others in a notorious sex-trafficking case--what 
they're being charged under is the TPVA, the Trafficking Victims 
Protection Act, and its many related provisions.
    Every 3 to 5 years we build on the original TPVA of 2000, and 2018 
is just another year where we're trying to update and strengthen our 
comprehensive legislation. As Allison pointed out, we've introduced the 
Frederick Douglass bill. It passed the House almost a year ago. 
Hopefully the Senate will take it up soon and get it down to the 
president for his signature.
    Inspired by Nancy Rivard's work with the airline industry, which 
she first brought to my attention in 2009, one section of the bill will 
tie eligibility for airline contracts to fly U.S. Government employees 
with whether or not they have a system in place, a protocol. It's not 
absolute, but it will give preference, like we have with Delta and some 
of the other airlines--a very strong, robust effort of situational 
awareness. Well, if you have that in place, you're more apt to get a 
U.S. Government contract.
    Inspired by Carol Smolenski's ECPAT's briefing on the Hill some 2 
years ago, we will also tie it to what's happening in the hotel 
industry, because we do know that U.S. Government employees all over 
the country are staying in hotels. We want to make sure that there's a 
protocol in place there as well, a situational awareness training so 
that, again, if you see something that looks wrong, is not right, you 
will report upon it.
    I would just point out, finally, that just this year sweeping 
legislation was passed--it's Ann Wagner's bill--the Allow States and 
Victims to Fight Online Sex Trafficking Act. That became law and almost 
immediately some of the worst online slave markets went dark, and the 
CFO of Backpage.com plead guilty to child sex trafficking.
    A coupe of years ago we passed the International Megan's Law. Megan 
Kanka was from my hometown of Hamilton. She was brutally murdered and 
raped by a convicted pedophile who lived across the street. It took 
eight long years, but we got the International Megan's Law passed. And 
now we notice countries--when a convicted pedophile plans to travel, 
that person is noticed to that country and the country can take 
appropriate steps, which usually means they're not allowed into that 
country. And so far--it's about a year now--there's been an effect: 
3,600 sex offenders with sex offenses against children have been 
noticed to these countries. And many, the overwhelming majority of 
those, have been turned back and said you will not come to our country 
and abuse our children in secrecy.
    I want to again thank this very distinguished panel, and Allison's 
going to do the introductions for each and every one of them. This is a 
good learning moment, and these are the experts who have made all the 
difference in the world.
    And I thank you. [Applause.]
    Ms. Parker. Thank you, Congressman Smith.
    First up, we have Michael ``Mick'' McKeown. He is the executive 
director of the Department of Homeland Security Homeland Security 
Advisory Council and Blue Campaign. If you ``see something, say 
something.'' He oversees the 40 council members as well as the ongoing 
policy work of the subcommittees. He also heightens the public's 
familiarity with human trafficking and its identifiers. Under the ``If 
You See Something, Say Something'' campaign, he raises public awareness 
on indicators of terrorism and terror-related crimes and how to 
recognize them.
    Mr. McKeown. Thank you very much.
    So, first, Representative, I want to also thank you for the Blue 
Campaign Authorization Act that was passed unanimously through the 
House and the Senate. Greatly appreciate your support on that. That is 
a big first step for us at the Department of Homeland Security, to be 
able to codify that type of office so that we will be there in 
perpetuity--however you say that word--and be able to work together to 
help eradicate this crime. Because that's what the whole point of this 
table and all of the work we're doing is. We're not trying to fight it; 
we're trying to eradicate human trafficking.
    And one of the things that is so fulfilling to be able to be here 
today is to know that when we work in the spaces that we do, the type 
of responses that I get from the private sector. Predominantly when I 
do my work I work with the hospitality industry, and we've been able to 
introduce a Hospitality Toolkit. And this toolkit is giving us a great 
conversation piece to bring to the private sector. Also, it's a two-way 
communication. It's a way for us to get an understanding of what it is 
that they're dealing with and how we in the Federal Government can help 
them combat this crime.
    That being said, when we work in these spaces, one of the things 
that we're really trying to do here at the Blue Campaign is to make 
sure that people kind of take a moment and look at things in a way that 
they might not have looked at it before. One of the things that we have 
to deal with is, you know, the ``why,'' right? Because ``why'' is a 
funny little word. It can either paralyze us or empower us. And one of 
the things that we try to do in the Blue Campaign is empower people to 
be able to take that action that they so desperately need because of 
those moments that give us pause, there's a reason why they give us 
pause. And we have to kind of explore that. What here doesn't feel 
right? What is that gut-check type of moment here that doesn't seem 
right? What am I seeing?
    And that's where the Blue Campaign is able to come in and help, 
introduce the hospitality industry to the Homeland Security 
Investigations department and giving them that thing to do, because it 
might not necessarily be a 9-1-1 call, but they know that something's 
going on that's not necessarily right. And so that's one of the things 
that in our partnerships we're trying to really build on and to help 
create.
    There's other aspects of the Blue Campaign that we work on as well, 
not only with our transportation industry. We have a component that's 
called the Blue Lightning Initiative that works with doing training. We 
also help with being the unified voice for the Department of Homeland 
Security [DHS]. We go across not only the 22 components that are 
composed of DHS, but also all the interagency work that goes along with 
it so that we are able to make sure that we have a unified front when 
dealing with this.
    I have to say, though, the greatest honor of being at the Blue 
Campaign and doing this is the victim-centered approach that we take to 
how we handle this horrific crime. And every piece of product that we 
send out, whether it's the Hospitality Toolkit or our new public 
service announcement called ``Neighborhood Watch,'' has survivor input. 
And I think that really makes it an important aspect of the work that 
we do, because if you're going to have an authentic voice and be in a 
noisy world like this is, you have to have a strong personal narrative. 
And I think that we're able, by getting this type of victim-centered 
approach, to get that survivor input. They might be victims at one 
point, but when they work with us at the Blue Campaign they're 
survivors. And to able to work with them and to be able to hear their 
story and give a voice to those who have been voiceless for so long has 
been one of the most rewarding works of public service.
    So, that's it for my intro. Thank you very much. [Applause.]
    Ms. Parker. Thank you, Mick.
    Next up we have Tracey Breeden. Tracey's the director of safety 
communications at Uber. In this role she leads global sex assault, 
human trafficking, and women's safety campaigns. She has worked with 
Cindy McCain to create trafficking education for drivers. She also 
authored Uber's first safety tips for riders. She's the vice president 
for the nonprofit Kick at Darkness, which was founded by a survivor of 
child sex trafficking and helps fund healing services for survivors of 
human trafficking, sexual assault, domestic violence, child abuse, and 
hate crimes. Tracey is a subject-matter expert in sex crimes and 
domestic violence, drawing from nearly 15 years of experience in law 
enforcement as a former police officer and detective. We're so grateful 
to have Tracey with us today.
    Ms. Breeden. Thank you. Thank you for having Uber here today to 
speak about this very important issue that affects all of our 
communities across the globe.
    Uber connects millions of people across the globe every single day. 
Every single day across the globe we're doing 15 million trips. Think 
about how many people that is, coming into contact with one another. 
And we know that our drivers are uniquely positioned to really be able 
to identify not only victims of human trafficking, but to be able to 
prevent this. And we know that we play a significant role, and we want 
to play that significant role in helping prevent this in our 
communities and finding ways that we can work with our national 
partners to make a difference in this space.
    In 2015, Uber partnered with ECPAT-USA to be the first company in 
the on-demand space to sign The Code. With that, we started to change 
our policies. Our community guideline is to have zero tolerance for 
human trafficking on our platform. And then we tried to find out how 
can we use our innovation and our technology to help raise awareness, 
to help educate in this space, to also help prevent this in our 
communities that we serve.
    We worked with organizations like the National Center for Missing 
and Exploited Children [NCMEC], ECPAT. Our other partners are the 
McCain Institute as well as Thorn and Polaris. Most recently we just 
partnered with Polaris at the first of the year to raise awareness 
around the national hotline that's out there.
    We worked with Cindy McCain and the McCain Institute to develop 
tips specific to the rideshare platform. We wanted our drivers to know 
if something's happening in their vehicle, what would it look like? 
What would human trafficking look like? We started first by educating 
and helping raise awareness with our drivers about what it is, because 
I can tell you as a former police officer most people in our 
communities don't even know this is happening. They don't know what it 
is. They don't know what it looks like. So the first thing we have to 
do is help them understand what it is and help them realize that this 
happens in our communities each and every day, and no community is 
immune from it. She helped us develop those tips specifically to that 
platform. What should drivers look for when there's somebody in their 
car?
    And how can they take action? That's the third step. And by taking 
action, we educated our drivers on calling 9-1-1 first and foremost 
when you're in a safe position. But you know, just like Mike talked 
about that gut check, sometimes you're just not going to know if it 
raises to the level of 9-1-1. And you might have this feeling or this 
suspicion that you're seeing something. So that's where the national 
hotline comes in with Polaris, a way to call, to provide those tips to 
the national hotline, to get more information. And Polaris can partner 
with us to get that information to police.
    We also rolled out driver events across the nation to educate our 
drivers, to pull in local organizations as well as law enforcement and 
our national partners to talk about what--not only that this is a 
national issue and what it looks like on a national level, but what 
does it look like in that specific community, and working with those 
partners to help educate and raise awareness with those events.
    We also did things around the Super Bowl, putting information out 
around the big events. But we were also very careful that people 
understand that this is not something that is just attached to big 
events. This is something that's attached to every day in America, and 
across the globe.
    So those are some of the things that we've been working on. We 
partner with Thorn. We provide our engineers to be able to help Thorn 
develop technology to be able to catch traffickers online. We're always 
thinking about how can we utilize the people in our organization that 
have a skill set that could be helpful to these organizations; but also 
how can we, working with our national partners and working with other 
folks in this space, come up with solutions, ideas, and innovative ways 
to help combat this on a global level.
    We're also rolling this outside the United States. So for the first 
in time, in January we sent our messaging and our tips out to nearly a 
million drivers in the United States--that's every single driver in the 
United States--as well as 10 million riders. We're now rolling that out 
internationally and working in Canada and Mexico. Canada doesn't have a 
national hotline, but is working on getting a hotline this year around 
October or November. And we're working with Polaris to be a part of 
that, as well as the same thing in Mexico and finding ways that we can 
do things internationally.
    I was just talking to Nancy, who's doing training--and I'm sure 
she'll talk about that--in Guatemala. That's exciting to hear, of all 
these countries that we're helping raise awareness with the millions of 
people who not only drive on our app but ride on our app.
    And we realize that we all have a role to play. We all have a role 
to play in the safety of our communities, and we take that role 
seriously. And we're committed to finding solutions and doing more in 
this space.
    So thank you for having Uber here.
    Ms. Parker. Thank you, Tracey.
    We next welcome Nancy Rivard. She's the president and founder of 
Airline Ambassadors International, which has hand-delivered $60 million 
worth of aid to children in 54 countries in orphanages, clinics, and 
remote communities, impacting over 500,000 children around the world. 
And as Representative Smith mentioned, she first brought the concern 
about human trafficking on our flights to his attention in 2009. She 
has been working tirelessly with the Department of Transportation and 
DHS since that time, and we've seen wonderful results.
    Nancy, I'll let you tell them more about it.
    Ms. Rivard. Thank you so much.
    I'm the president of Airline Ambassadors, who are a nonprofit 
organization that has led advocacy on human trafficking awareness since 
2009, when I went to Congressman Smith for assistance in getting the 
word out to airlines. And when the airlines didn't really respond, we 
took it upon ourselves to develop the first industry-specific campaign 
or training on human trafficking awareness, which we just completed our 
70th airport training in Haneda Airport in Tokyo last week. Our work 
will be highlighted at the release of the new International Civil 
Aviation Organization [ICAO] Guidelines at the end of this month and is 
being highlighted this week at the International Air Transport 
Association [IATA] meeting in Bangkok as well.
    Because of the FAA Reauthorization Act in the United States of 
2016, airlines are required to train flight attendants. Most of them 
are utilizing the Blue Campaign's excellent online materials. Delta is 
still first and out front. In 2018 they launched an enhanced training 
with Polaris tailored directly for Delta's 54,000 employees, initiated 
an apprentice program for trafficking survivors, hosted an event to 
inspire new employees and also local CEOs, as well as new signage in 
the airport. This year American Airlines joined Delta as being a signer 
of the ECPAT Code of Conduct and JetBlue's commitment was also 
recognized at the General Meeting of IATA last year in Cancun.
    International airlines are jumping on board, too. Both Air Asia and 
Air Emirates initiated a major launch of training last year. Copa and 
AeroMexico joined the international Blue Heart Campaign, they jumped 
on.
    And there are successes. Airline Ambassadors provided training in 
Sacramento last year, and the airport is proactive for awareness. In 
February, Sacramento American Airlines agent Denice Miracle noticed two 
girls, 15 and 17, who were traveling on a one-way ticket to meet a man 
they had met on Instagram. Both their parents thought they were 
spending the night with each other. Her alertness saved those two girls 
from an uncertain future.
    Congress can help by strengthening the laws to encourage airlines 
to provide training to all employee groups, including agents, pilots, 
and more. Funding should be increased so Blue Campaign can provide 
trainings to the training staff of all 33 airlines. The online 
trainings are very good, but many employees do not pay close attention 
and are not taking the issue seriously. Here are three examples.
    Last March, on a flight from Rome to Chicago, all eight flight 
attendants in the back of a 767 were sure that a 50-year-old man was 
trafficking a 7-year-old Albanian girl. They went to the cockpit and 
they shared this information, and even pointed in the airline pilot's 
manual where they're supposed to radio to the airport ahead. The pilots 
refused, saying ``This has never been mentioned in pilot training and 
we are not going to take the chance.''
    Earlier last year also, the agents in Houston, where we had 
provided a human trafficking awareness training at the airport checking 
out to go home, they said, ``When is somebody going to train us? We see 
trafficking every day. We just saw it this morning and we don't know 
what to do.'' I visited airline operations to ask one of the workers 
there what he would do if a pilot had radioed in a potential human 
trafficking case. He said, ``Absolutely nothing. Has nothing to do with 
aircraft security.'' More training is needed for all employee groups. 
Funding should specify that ``Train the Trainers'' for training staff 
of the 33 major airlines should include actual trafficking survivors, 
as we do in all our trainings, to make the issue real and motivating 
people to emphasize it.
    Airports also play a key role in awareness. We helped Chicago, Las 
Vegas, and San Francisco establish a video for all airport employees in 
the online badging office. Atlanta, Houston, Minneapolis, and 
Sacramento have also been very proactive. The DHS ad campaign is in 
most of the customs areas. A21 signage is in New York and Chicago. They 
are also a human trafficking group. The Tip Line app that we developed 
and give out at our trainings has received 1,000 tips since we unveiled 
it in the last 2 years.
    However, many airports have not been receptive to training, like 
Los Angeles and Miami. They have said training is not needed and there 
are no resources to support it.
    But we know that training is needed. Donna Hubbard, one of our 
trainers, noticed a woman crying outside a bathroom in Miami Airport. 
The girl said that she didn't want to get on a plane. A man had bought 
her a ticket the night before in a bar and she didn't want to get on 
the plane. She wanted to go to New York and she wanted to go home to 
her mother. Donna contacted the airport police and got them involved. 
The airport police weren't trained properly in a victim-centered 
approach, and they intimidated the girl so she just said everything was 
all right. It was Donna who took the initiative and got the girl home 
to her mother, saving her from a horrible future.
    The Human Trafficking Investigations and Training Institute has one 
of the best trainings out there for law enforcement. Most airports and 
police departments are reluctant to use their limited training funds on 
human trafficking awareness training because it's not mandatory at the 
state level. Training resources need to be increased for training of 
travel industry personnel.
    Motivating the private sector--although the private sector is 
critical in this fight, airlines do not truly understand or appreciate 
that human trafficking awareness is needed and are hesitant to 
integrate new policies into their corporate cultures. They are nervous 
that vigilante flight attendants will make false accusations and they 
will end up in a lawsuit. We sent a letter to 24 CEOs of travel 
companies last year, last March, encouraging them to take an extra step 
also to hire human trafficking survivors. Not one CEO responded, except 
for the American Bus Association, which is demonstrative of their 
social responsibility.
    The critical infrastructure of our transportation system can no 
longer be used as a tool to implement human trafficking or modern-day 
slavery. It's the fastest-growing crime in the world, linked to drug 
trafficking, human smuggling, arms trafficking, and terrorism. It is 
also a cabin safety issue.
    In the words of the Association of Professional Flight Attendants, 
the largest flight attendant union in the world: ``We are committed not 
only to preparing our membership to recognize and report suspected 
incidents of human trafficking, but also to raise public awareness of 
the problem. Putting an end to human trafficking will require a 
coordinated effort and a commitment of the entire transportation 
industry.''
    Thank you.
    Ms. Parker. Thank you, Nancy. I'd like to welcome next--
[applause]--oh, please do.
    I'd like to welcome next Carol Smolenski. She's the executive 
director and one of the founders of ECPAT-USA, which stands for End 
Child Prostitution and Trafficking. She's been working in the field of 
children's rights for 18 years, and she is a longtime nationally 
recognized leader, especially in the area of commercial sexual 
exploitation and child trafficking. She, at ECPAT, oversaw the 
development of the first research project on child trafficking in New 
York City and two other research projects about commercial sexual 
exploitation of children. She was the project director for the New York 
City Community Response to Trafficking Projects in New York, a 
multifaceted groundbreaking project to inform communities at risk for 
human trafficking about the Federal antitrafficking law and to help 
them obtain better protections for victims. And may I just say that 
Carol and ECPAT have been instrumental working with hotel and lodging 
associations for decades with The Code. And I'll let her tell you more 
about that.
    Ms. Smolenski. Thank you, Allison. Thanks for pushing my button for 
me. [Laughter.]
    Good afternoon, everyone. Very happy to be here. I actually am much 
older than that introduction implied because I've been actually at this 
for 27 years. And I guess I have to edit my bio--[laughter]--because 
I've been around the block a few times.
    Twenty-seven years ago, ECPAT began advocating for the protection 
of children from exploitation in the context of travel and tourism. 
Back then nobody was talking about it, I can assure you, but I am very 
proud to talk about today how much progress we have made since then.
    Our first success back in 1994 was working to pass 
extraterritoriality legislation that made it possible to prosecute an 
American in the U.S. for having exploited a child in another country. 
This law was then significantly strengthened in 2003. And I'm also very 
proud to say that U.S. law enforcement does spend a lot of time 
enforcing this law. They've been very proactive in comparison to some 
other countries. This month a Florida man named David Lynch was 
sentenced to 330 years in prison under one of these laws for having 
exploited children in the Philippines, a really great success.
    Our other big success, of course, has been the expansion of the 
Tourism Child-Protection Code of Conduct that we've been talking about. 
The Code was created in 1998 and we introduced it here in North America 
in 2004. The Code is a set of six voluntary steps that companies can 
take to protect children from sexual exploitation. Carlson Companies, 
the company that owned Radisson and other brands, was the partner right 
from the start, back in 2004. It took several years to get more 
companies to be willing to pitch in. I'm proud to say that in 1022 
Wyndham and Hilton both signed The Code of Conduct, and today every 
large U.S. hotel chain has signed The Code. Besides the companies I 
mentioned above, Marriott, Choice, and Hyatt. These are six of the 10 
largest hotel companies in the world. Also, as Nancy mentioned, two of 
the largest domestic air carriers, American and Delta, have signed The 
Code of Conduct.
    One of the most important steps of The Code is staff training. Let 
me just tell you one story about a security agent who worked at a hotel 
in Massachusetts. I'm going to call him Benjamin. His hotel was so 
well-trained that the minute a trafficker entered his property, they 
implemented their protocol and his whole team knew what to do. Raymond, 
the trafficker, was head of an international trafficking ring who, it 
was later found out, had been selling kids at 400 hotels, in fact, 
before getting to Massachusetts. He tried his luck at Ben's hotel, but 
he was stopped in his tracks. He had brought two children to Ben's 
hotel, but instead of being abused they were identified; and instead of 
Raymond--the trafficker--walking free, he was sentenced to the maximum 
penalty of 30 years in prison. Yes, big success.
    So spreading the word to hotel associates is crucial. In 2016 ECPAT 
partnered with Marriott to expand online human training for their 
associates. The training is now available through the American Hotel 
and Lodging Association--I'm sure you'll be hearing about that next--
and used by hotel brands across the industry. Marriott-branded hotels 
alone trained over 335,000 associates within 15 months of requiring the 
training--335,000 people were trained by Marriott within 15 months. So 
imagine if every hotel brand required training.
    According to a 2017 nationwide survey of hotels initiated by ECPAT 
and carried out by NYU's Wagner Graduate School of Public Service, over 
half of the U.S. hotels are trained to help prevent child trafficking. 
This is a huge development that we're very proud of. More information 
about our work with the hotel industry is in our report called ``No 
Vacancy for Child Sex Traffickers,'' which is on our website. There are 
a few copies outside on the table.
    So, while we have come very far, we still have a long way to go. In 
2016 ECPAT published the results of a 2-year global study on the sexual 
exploitation of children in the context of travel and tourism. 
Congressman Smith, of course, was at our global launch here in the U.S. 
The study's 47 recommendations set the stage for the next phase of our 
work. I'm also sharing copies of that with you. The executive summary 
and recommendations again are outside on the table and also on our 
website. \1\
---------------------------------------------------------------------------
\1\  https://static1.squarespace.com/static/594970e91b631b3571be12e2/t/
5975f0415016e132ff08e3d1/1500901444238/Global-Report-Offenders-on-the-
Move-Final.pdf
---------------------------------------------------------------------------
    But one of the most important recommendations calls for all 
businesses, not just those in the travel industry, to take steps to 
protect children from sexual exploitation, that all of them adopt 
child-protection policies, train, and join ECPAT's Code of Conduct. So 
we are delighted, of course, about the new provisions introduced as 
part of the Trafficking Victims Protection Reauthorization Act [TVPRA] 
by Congressman Smith calling for U.S. [Government] employee travel to 
take place with companies that have signed The Code.
    But in addition, we are developing a new training for companies 
that manage corporate travel and events, supported by Carlson Wagonlit 
Travel and Maritz. So this will bring information to travel managers at 
companies across the private sector. All big companies like Apple or 
Ford or McDonalds hire travel management companies like American 
Express or Carlson or Maritz [or many others] to manage all of their 
global travel for all of their executives. We are now starting a 
program to train travel management companies [like American Express, 
Carlson and Maritz] about how to talk to their clients [like Apple, or 
Ford, or McDonald's] about child-safe travel. This includes encouraging 
them to have a policy against sexual exploitation of children for their 
staff who travel and encouraging them to train them about what child 
exploitation looks like to make sure that all of those executives 
traveling around the world know not just how to travel safely and 
responsibly, but how to spot potential child-trafficking cases and what 
to do if they see them.
    So let me just tell you one other story. A woman I'll call Jenny 
attended a session hosted by Maritz Travel, one of the travel 
management companies. They were having a business meeting in Mexico. 
One of the awareness-raising sessions was about human trafficking. On 
her way home from that conference in Mexico she saw a woman with a 
plastic bag as luggage who looked disheveled and looked not quite 
right. She thought that the situation, there was just something wrong, 
so she reported her suspicions. And she was right: the girl she saw was 
a human trafficking victim and she was rescued because of this woman.
    Of course, the sexual exploitation of children also happens outside 
of the context of travel and tourism. One of the fastest-growing areas 
that children are exploited in is through the production of child abuse 
imagery, commonly called child pornography. Most people are not aware 
of the vast extent of this problem--the National Center on Missing and 
Exploited Children cyber tip line received over 10.2 million reports in 
2017. The Europe-based Internet Watch Foundation reported that in 2017 
that 55 percent of the images were children 10 years old or younger. It 
also reported that in these pictures, the content showing the rape or 
sexual torture of children is up by 5 percent, from 28 percent to 33 
percent.
    This is a huge, horrific problem that we are yet to grapple with 
both as a country and really globally. We will soon be issuing a report 
for recommendations that include things like stronger background checks 
for anyone who comes in contact with children; more oversight of ICANN, 
the Internet Corporation for Assigned Names and Numbers, which 
registers website names; among many other recommendations. It's a 
complex and growing industry that needs a range of responses, but that 
definitely includes government regulation and oversight.
    So, as we talk about legislative priorities, I just want to thank 
members of the House who were involved in the successful package of 
FOSTA [Fight Online Sex Trafficking Act]/SESTA [Stop Enabling Sex 
Traffickers Act] legislation. It was a hard-won victory, and we 
appreciate your offices who might be here who had led the charge in 
spite of opposition from the tech industry. It does, I feel like, call 
for the pathway for additional regulation to counter the huge growth of 
children being exploited online.
    And second, of course, many of your offices have been instrumental 
in moving along TVPA reauthorization. Thank you so much again. The 
House-passed bill was particularly strong and made a number of 
adjustments that we strongly supported. We understand they are very 
close to a final conference agreement. We look forward to endorsing the 
bill that will be sent to the president.
    So we've made great strides in the protection of children over all 
of these years. But as the problem of child exploitation constantly 
adapts to a changing world--moving off the streets and online, going 
behind the doors of private residences--we have to be ever more adept 
at responding. We cannot lag behind the abusers and traffickers who 
spend every minute trying to figure out ways to get around the laws. We 
have to work faster. We have to work smarter. We will. We've been doing 
this. We can do this.
    The travel industry is one of the biggest industries in the world, 
which is a means for exploitation to take place. But the good news is 
that one of the biggest industries in the world is mobilizing to stop 
it. I am really proud of this, and I'm looking forward to working with 
all of you to continue this fight.
    Thank you. [Applause.]
    Ms. Parker. Thank you, Carol.
    Next, I'd like to welcome Craig Kalkut. Craig is the vice president 
of government affairs at the American Hotel and Lodging Association, 
where he leads AH&LA's efforts in the areas of travel promotion, tax, 
and enterprise issues such as terrorism risk insurance, and patent 
reform. He joined the association after nearly 8 years in the U.S. 
Senate, most recently as the chief counsel for Senator Amy Klobuchar 
and the Judiciary Subcommittee on Antitrust, Competition Policy, and 
Consumer Rights. Craig has been very helpful as we've refined the 
TVPRA, and I look forward to hearing more about what the Hotel 
Association has been doing.
    Mr. Kalkut. Great. Well, thank you, Allison. Thank you for having 
us here today.
    Thank you, Congressman Smith, for your years of devotion and 
passion on this issue. And thank you, again, to you, Allison, on your 
work with us and all the stakeholders on your boss' great legislation 
to make it as effective as it possibly can be.
    I also want to recognize other champions that we've worked with 
that have pushed through legislation on the Hill: my old boss Senator 
Klobuchar, but also Senator Grassley, Senator Cornyn, Senator Portman, 
Senator Blumenthal; and then on the House side, in addition to Rep. 
Smith, Representatives Wagner, Walters, Bass, and many others who have 
worked on this.
    So, to step back for a moment, I joined the American Hotel and 
Lodging Association just over 4 years ago after working on Capitol 
Hill. And I think a couple weeks into my job I got a phone call from a 
Senate office asking what our industry was doing on human trafficking. 
And I was honestly taken aback and confused. I didn't know why they 
were calling us, why they were asking. Even though I had worked on 
human trafficking on Capitol Hill, I hadn't come across the connection 
to hotels. So, you know, I told them I would look into it and get back 
to them, and I didn't know what I was going to find.
    So I started asking around the office and asking our members, and 
was incredibly pleased to find out that we indeed had been very engaged 
on this issue. I found out very quickly perhaps the most significant 
thing, or most significant single action we've taken was in 2013, the 
year before I joined the association, we had worked with Carol and her 
team at ECPAT to design a training program, an online training module 
geared specifically for hotel employees on human trafficking. And Carol 
mentioned in 2016 this was revamped with ECPAT again and Marriott, as 
well as Polaris, and so it's a new and improved version of that 
program. And as she said, Marriott has trained over 335,000 employees 
already. I know a couple of our other major members have told me 
recently they have each trained over 50,000. So just from those three 
companies alone you're talking 450,000 people trained in the last 
couple years. And it's not just those companies; those are the ones 
that happen to have the most up-to-date statistics.
    So our efforts on trafficking really focused on two key pillars. 
The first, training, and I've sort of already touched on that. The 
other is raising awareness. And so we do whatever we can to do that. 
And, of course, these two things work together. The more people are 
aware, the more they are going to have their companies get trained, 
have their colleagues get trained, and work with others in the industry 
to increase training.
    So, in terms of raising awareness, we've taken a number of steps. I 
speak on panels like this one whenever I have the privilege of being 
invited to speak. Two weeks ago I was in Atlanta speaking with the 
attorney general of Georgia, who has been a leader on the issue of 
human trafficking, at an event that was attended by over 200 people--
almost all hotel employees--who were there to be trained by the Georgia 
Bureau of Investigation. So the attorney general sort of set the 
framework and talked about his statewide efforts, and then GBI--the 
Bureau of Investigation--came and did an actual training.
    And so the ECPAT-HLA-Marriott-Polaris training is one training, but 
there are others out there. Sometimes they're done by law enforcement. 
DHS and the Blue Campaign have materials and training available. So 
we're happy to have people train however they can most easily find it 
and wherever they can get it and whatever works best for them. And I 
think the Congressman's legislation is going to help ensure that even 
more people in the industry are trained, and we think that is vital. I 
think that's the most important thing we can do in the industry.
    We've also invited people to come speak at our events. And so a 
couple years ago, when we had our big legislative fly-in, we invited 
one of Carol's employees, Michelle, to come speak to our conference. 
This is our largest gathering of the year, every year. And I believe 
that year she was the only person on the speaking agenda who was not 
either a member of our industry--and typically those are people on our 
staff or CEOs--or a member of Congress. So it just shows the value and 
priority that we place on trafficking.
    In addition, we take whatever opportunities we can around, as 
others have mentioned, the Super Bowl--just to put out alerts, 
sometimes with ECPAT or Polaris other partners like the McCain 
Foundation--just to remind hotel employees, hotel owners, guests to be 
vigilant. And it was also mentioned we make sure to be clear that 
trafficking doesn't just happen around big events like the Super Bowl, 
and I think some question whether there is even an increase. But 
whatever the case is, it does present an opportunity to get attention--
to get attention in the media and to raise awareness.
    One other step we took a couple years ago was to issue hotel 
industry principles on human trafficking. We did this, again, to 
elevate it as an issue within our industry and also to give some of our 
members general guidelines and direction as to how to tackle this 
problem. And that is probably most helpful for our small members. Our 
association has members such as Marriott and Hilton and Hyatt, but we 
also have franchisees who are small-business men that own one hotel, 
and it may be more difficult for them to sort of grapple with these 
large issues like human trafficking. And so we issued these principles, 
created these trainings, hold webinars, put out press releases to 
frequently remind our members big and small of the importance of this 
issue.
    So we're proud of what we've done in the industry. It's been a 
commitment over a long period of time, as was mentioned. Carlson 
Hotels, which is one of our major members, was the first signatory to 
the ECPAT Code of Conduct. That was way back in 2004, and since then 
the other major hotel companies have come onboard as well. And we 
continue to seek whatever opportunities we can, as I mentioned, to 
raise the issue, to raise awareness, and to get more and more hotel 
employees trained.
    So thank you and look forward to a discussion. [Applause.]
    Ms. Parker. Thank you, Craig.
    And, last but not least, we have Nick Shapiro. Nick is the Global 
Head of Trust and Risk Management for Airbnb. He was previously the 
CIA's deputy chief of staff and senior advisor to CIA Director John 
Brennan. Shapiro served on the National Security Council staff, and was 
a White House counterterrorism and homeland security aide in the last 
administration. Nick?
    Mr. Shapiro. Thank you. First, I want to start by thanking you, 
Allison, for having Airbnb here and for putting this together.
    And thank you so much, Representative Smith, for all of your 
leadership on this issue.
    It's great to be here with such esteemed colleagues as well, as I'm 
already learning things from everyone on the panel. So it's an honor to 
be here.
    As Allison said, my name's Nick Shapiro. I'm the Global Head of 
Trust and Risk Management at Airbnb. Previously, I was the CIA deputy 
chief of staff and a senior counterterrorism aide to President Obama on 
the NSC.
    When I left government about 3 years ago, I had no idea where I 
wanted to go or what I wanted to do. I've been to Yemen more times than 
I've been to San Francisco and did not know what a tech company was 
going to be like. I very quickly learned that I was a little different, 
I think, than everyone else. My meetings throughout Silicon Valley, the 
meetings I was in with Airbnb, I realized that everyone at Airbnb and 
the sharing economy in Silicon Valley were so optimistic--brilliant, 
but so optimistic. And I quickly found out that maybe I brought a 
healthy counterbalance to the extreme optimism of the sharing economy. 
I quickly became the guy no one wanted to invite to meetings--you know, 
the buzzkill, the guy who said are you crazy, we can't do that. But 
it's become a great partnership, and it's a partnership that works. And 
it has to at the scale that we're operating at.
    You know, my team is in charge of making sure that the community in 
Airbnb is safe. We've had 300 million guest arrivals to date. We've got 
close to 5 million listings in 191 countries. That's more than the top 
five hotel chains combined. Tonight, there will be 2 million people 
staying somewhere in the world in an Airbnb.
    Again, we take this extremely seriously. And trafficking is a 
scourge that absolutely has to be eradicated. One of the first things 
that impressed me about Airbnb, is the commitment the company had to 
making sure that we were going to use all of our technological advances 
to fight that issue.
    So what we put together shortly after I arrived was a five-point 
strategy for how we were going to make sure that the problem of 
trafficking doesn't become a problem in Airbnb. As the new kid on the 
block, we have the ability to leverage the expertise and the learnings 
and the experience of those who have been doing this for decades, and 
so we tried to put that to use and we developed this five-point 
strategy.
    The first is partnerships. Again, people have been doing this long 
before Airbnb existed and there's so much good work out there, so we 
needed to go out there and find that work. So we've worked with the 
Blue Campaign, which they do have amazing materials. We've worked with 
Thorn. We just signed a partnership with Polaris. And what these orgs 
have brought to us is a skill set and an expertise that, frankly, the 
company didn't have internally. So we have been almost like a vacuum 
cleaner, just sucking up as much as we possibly can to make sure that 
we set out this program the right way.
    Second--as lots of people have mentioned--trainings, education, and 
awareness. We've taken all of the lessons learned, all of the training 
materials, and we've implemented programs to teach all of our frontline 
employees--our customer service agents, our trust and safety agents--
what they need to look for in order to spot trafficking, as well as 
what they can do when they come across a survivor to make sure it's 
handled the best way possible.
    The third pillar of our strategy is, I think, the most exciting. It 
lets us go on offense. It's our technological advantage. You know, 
Airbnb is lucky. We sit at the intersection of technology, travel, and 
hospitality. We have some of the brightest minds in Silicon Valley. 
Every single reservation on Airbnb is scored ahead of time for risk. So 
we use machine learning, behavioral analysis, predictive analytics, 
instantly evaluating hundreds of different signals, looking to see if 
there is anything suspicious about a reservation so we can stop 
suspicious behavior before it actually takes place. We can actually 
stop the trafficking before it happens in an Airbnb.
    We've got 10 years now of address history--or reservation history, 
in a sense, so we're able to teach our model more every single day, 
what looks different about this reservation. And we learn from Polaris 
and from the Blue Campaign, and from everyone else who has done this, 
and we feed all of that information into this model, and it has become 
an unbelievably successful tool that we're making smarter every single 
day.
    We use PhotoDNA, you know, and so every single photo, message, 
picture on Airbnb gets screened through PhotoDNA and it matches with 
NCMEC's CEI--Child Exploitation Imagery Database--to make sure that 
there is no CEI on Airbnb, and if it is, it's rooted out. We background 
check every single host and guest in the U.S., and every host and guest 
all over the world gets screened against financial sanctions and global 
terrorist watch lists.
    Traffickers have tried to take advantage of the Internet, as we all 
know. They use the anonymity of the Internet, but it's a double-edged 
sword for them because they need the Internet to also advertise and to 
make known where people can go to do this abhorrent act. So that's 
where we go. At Airbnb, not only do we do all of this risk scoring and 
the background checks that I talked about, but we are screening the 
dark web. We are using the sites that prosecutors tell us, that we 
learn from the cases that they run against, that our coordination with 
law enforcement and intelligence tell us. So we are on those very 
sites, and we are looking for those bad actors.
    You have to again, you know, advertise in some way, so often there 
has to be a contact number, contact information given, an IP address. 
Things like that nature we're screening, we're looking for, and if any 
of that shows up on Airbnb, again, we can stop it before it actually 
happens and really help ensure that Airbnb is a place where this 
behavior is not going to be tolerated, and it's not going to continue 
to grow.
    Fourth is our coordination with law enforcement and intelligence, 
and we work with Interpol, work with a lot of my former colleagues 
throughout the intelligence community in the world. And we take every 
opportunity we can to seek out advice from them on what we can be 
looking for. Again, we have these technological advances, we have these 
tools that we just need to feed information to, we just need to teach 
it the right things to find, and we can make such a great dent in this 
problem we think.
    Fifth is probably the most fun, to be honest. It is proactive 
communication and public engagement. You know, talking about a horrible 
issue like trafficking is not what people want when they are going on 
Airbnb to plan their adventurous travel or their dream vacation, but we 
need to. Not talking about this and hiding it, or sweeping it under the 
rug, hoping it doesn't become a problem is not going to do anything 
except encourage the problem to grow and to fester. It is not going to 
help eradicate it. That's why we don't do that. We talk about this very 
hard topic as publicly as possible because I think it's a deterrent. We 
want the traffickers to know that we are looking for them, that we are 
screening our site for them--kind of, ``it's not going to happen on my 
watch'' type thing. We want them to know that we are all over these 
dark websites. We are everywhere that they think they're hiding. That's 
where we go, and we are looking for them to make sure they don't do 
this on Airbnb.
    So again, there is so much more work that needs to get done. We are 
learning more every day, and we want to learn from the folks who have 
been doing this a lot longer than we have. We're excited to learn more. 
I'm going to spend more time here tomorrow meeting with a lot of folks 
on the Hill and a lot of bosses of the folks in this room, and I'm 
looking forward to hearing their suggestions, and looking forward to 
get in some time with other folks on the panel, and I'm happy to answer 
any questions.
    Ms. Parker. Thank you, Nick.
    I'd like to open the floor to questions from the audience first. 
Any questions burning? If so, we have a mic to your right. Please 
identify yourselves. I so appreciate the very practical work each of 
you do in fighting trafficking within your specific industries, and 
Carol and Nancy, you shared stories of success. Craig, do you have a 
success story that you would like to share?
    Mr. Kalkut. Sure. We hear them as we talk to our members or travel 
around the country, and sometimes they make the news, sometimes they 
don't.
    One that sticks out in my mind is one that took place in New 
Orleans last year, and there was a 12-year-old boy who was with two 
older guests, and a hotel employee who had been trained thought 
something looked a little wrong, thought it looked off--sort of phrases 
you've heard before, and that's often the key. And there are specific 
signs that can be taught. We have a lot of them in our training. But 
sometimes I think the most important part of the training--sorry, I'm 
getting a little off topic here--but sometimes the most important part 
of the training is just reminding hotel employees, and airline 
employees, and whoever it is that this is a problem, that you can help. 
You should help. You have to help. And so when people see something 
they know to act. And then when you give them the specific 
instructions, then they are even better equipped to act.
    And so this hotel employee noticed this young boy with two older 
men, something seemed off, and then she heard one of the men say, I 
think I'm going to take this one home with me. And so--you know, so the 
alarm bells went off, and she went to her manager at the hotel. They 
reported it to the police, as it's supposed to work. The police came, 
and lo and behold, the boy had been missing for 3 days and was in fact 
a victim of sex trafficking. And so because of that hotel employee's 
awareness and decision to say something to her boss, this boy was 
saved.
    I think one of the reasons it stands out in my mind is that, 
although this is overwhelmingly a problem for women and girls, there 
are men and boys who are victims. And so I think it demonstrates again 
the importance of training, importance of being vigilant, and knowing 
that you should take action.
    Ms. Parker. Question from Representative Smith?
    Mr. Smith. I'll just be brief, and then if others would have 
questions, please sing out.
    Nick Shapiro, I'll just say if you are buzzkill, we need more of 
it. [Laughs.] And I thank you for piercing that--you know, it's good to 
be optimistic, but we need people who are sober, aggressive, and 
realize that this is going on right under our noses, so thank you for 
bringing your skill set to bear.
    All of you are just tremendous. I would ask Airbnb--you could have 
so good of a chilling effect that the traffickers decide to go 
elsewhere, which is a good thing as long as elsewhere is also doing a 
simultaneous standup of these efforts.
    If I could ask you, have you--has this led to any prosecutions, or 
do you think it's more of a fact that the bad guys feel, don't go there 
because you'll get caught?
    I would also ask, if I could--Tracey, how does an Uber driver 
actually do it? Do they do it while they are going from one area to 
another with their fare, or do they do it as soon as they let that 
person off? And how do they do it surreptitiously so that person in the 
back doesn't take some retaliatory action? Is there a code? And are 
there examples where police responded quickly? Because we all know Uber 
is there on the spot. I've been amazed at times when I've been anywhere 
in Washington, you contact Uber and they're there. How quickly are the 
police there to ascertain whether or not it's a bad situation that 
they're involved with?
    And I would ask Carol and maybe Nancy Rivard if you could just 
speak to what kind of pushback do you get? We know and you know--
because you testified at previous hearings that I had--both of you--
there were some airlines that were unwilling to do it. Yes, American 
Airlines was one of them, and now that seems not to be the case. Is 
that fear of some kind of legal obligation or vulnerability? Is that 
over with? Do they realize, because of the good work of what the Blue 
Campaign is doing as well, that they're on the side of the angels and 
on protection, and that acquiescence and indifference is really being 
on the side of the traffickers? They are obviously the conduit to 
getting people from here to there. You could speak to that as well.
    You go first, Nick?
    Mr. Shapiro. Sure. Thank you, and again, thank you so much for all 
the attention that you focus on this issue.
    I'd say two things. One, we absolutely don't want to kick the can 
down the road. I want to make that crystal clear. You know, we have to 
do everything we can to prevent it from happening at Airbnb, but we do 
that so we can help eradicate it across the travel and tourism 
industry. And that's frankly where we've seen a lot of help from 
Polaris. Polaris saw early, I think, in us this risk scoring that we do 
and the technological advantages that we throw at this problem. And 
they're actually connecting us to Delta, to Marriott, and to other 
parts of the travel industry, and are trying to broker how can we use 
some of our technological advantage with folks who have been doing this 
for so long and can help feed this both ways. So we've been working 
closely with Polaris on that.
    As for prosecutions, it has led to prosecutions, and one thing I 
recall that I think is substantial is there is a specific prosecutor 
that's known in trafficking circles in King County. The guy is a 
genius. This is like his life's mission. It sounds like people know who 
I'm talking about. And we got together and started--realized from my 
familiarity in counterterrorism and how we went after terrorists 
online, that we should be attacking traffickers the same way. So we've 
been starting to develop programs with this prosecutor about how you 
can use personas, and you can get on these chat rooms in a way that 
really hasn't been done in the trafficking fight. And you can use 
incentivizing. You know, he talks a lot about how it is not enough to 
just--you know, obviously you can't arrest the survivors--arrest your 
way out of the problem just like you can't kill your way out of a 
counterterrorism problem. You need to change behavior. And he's doing 
some amazing things, working with us, that remind me so much of the 
same programs we were doing, and we're helping feed the information and 
the technology into him, who again is treating these chat rooms like--
you know, it's going fishing in a sense, and it is picking them off one 
by one, it's turning them against each other, and it is changing 
behavior.
    They've done amazing things like run ads on the platform that you 
think, in a sense, are positive in a sense for a trafficker. It entices 
them, and then all of a sudden up will come the picture of a little 
girl whose father can't go to her birthday party anymore because he's 
now a registered sex offender--not because he was the trafficker, 
because he was the john. It's changing the behavior of the buyers and 
the sellers, and it has been wonderful, as Airbnb, to be a part of that 
conversation and to use the expertise that we have from a 
counterterrorism perspective, from a law enforcement perspective, from 
an intelligence perspective, and from a technological perspective.
    Ms. Smolenski. So your question was about pushback from the private 
sector. This is something we faced early on in the hotel industry. You 
know, as I mentioned, Carlson signed in 2004. It took 7 years for 
another big company to sign.
    There was a lot of concern early on about liability and also about 
being associated with an ugly topic, but we actually, I have to say, 
have substantially overcome that, at least in the hospitality industry. 
That companies are now proudly talking about the steps that they are 
taking--you know, we used to have to be quite careful with companies 
about how they were depicting their work, their commitment to The Code 
of Conduct, their recognizing that kids were being bought and sold on 
their properties. And it was quite a--sort of a diplomatic dance we 
did.
    They now are very comfortable talking about it because now they 
know they are actually putting in place the steps that they have to put 
in place, and it's really quite gratifying to see. We don't get 
pushback from the hospitality industry so much anymore.
    And as for the airline industry, it's actually been a little bit 
more difficult. Maybe Nancy can talk about that. While the two big 
companies have signed on, the others haven't, and I don't know as much 
about what's behind that. It doesn't mean that they are not taking 
steps because we have seen that in the hospitality industry. For a long 
time, companies kept assuring us they were taking steps but didn't want 
to sign The Code, and didn't want to sort of--as we put it--go all the 
way. They wanted to sort of tiptoe down it, and now they're starting to 
feel more comfortable. And so I am curious, actually, about what Nancy 
says about the airline industry.
    Ms. Rivard. Well, I think--thank you, Carol. I agree with 
everything you've said, and it's beginning to change. I reached out 
again to every major airline in the United States, and only one 
responded to me, to share with me their success stories--only Delta. 
And American signed on--I'm a legacy American Airlines flight 
attendant--but they said nothing. They're afraid to step out even 
though our survivor, who is an American Airlines flight attendant, is 
being highlighted in IATA in Bangkok and in Geneva.
    So one idea I had was if the United States would join the 
international campaign for human trafficking called the Blue Heart 
Campaign, which would coordinate with Blue Campaign, which is just an 
easy way for an airline to--maybe they're afraid to develop the 
marketing materials, afraid of making a fool of themselves--make it 
easy and fun for them to do it. Mira Sorvino, an actress, is the 
goodwill ambassador for the Blue Heart Campaign. I think that would be 
a way to push them in that direction.
    I'm also very excited about working with Airbnb and on the new 
technology. We got a standing ovation at the Interpol Conference in 
both Albania and Dubai about the encrypted app that we've developed 
that goes directly to law enforcement and geo-locates you. And I would 
love to coordinate with everybody working on technology--and Uber as 
well on that. We're excited to be working with both with Uber and the 
hospitality industry in El Salvador and Guatemala next month.
    So we still have a ways to go. We have to push these companies to 
do the right thing. They're a little nervous still. It's moving, but 
slowly.
    Mr. McKeown. I'm just going to hop in real quick on the airline 
industry. One of the things that we do have at the Blue Campaign is the 
Blue Lightning Initiative. And BLI is run by the Custom and Border 
Protection unit, and we have been able to highlight and train 70,000 
airline personnel in the United States, and this is one of the things 
that we have been able to get on there. I do agree that there is still 
work to be done in the field, and there is obviously awareness and 
education is always a good thing to have, and the more we know, the 
better off we are. But we are working within the airline parameters, 
and I do know that it's part of federal funding in the FAA 
Reauthorization Act that that training is mandated, and we are working 
with them.
    So I do agree that we have some more work to do, but with that 
being said, we have--I know with the Blue Campaign and Blue Lightning, 
we've already done around 70,000 personnel.
    Ms. Breeden. Yes, to answer your question, how do they do it--well, 
there's many ways they do it, but we definitely encourage them safety 
first. So a lot of times we'll encourage them to call 911, but it means 
separating yourself from the scene and then calling 911. Or again, if 
they don't know exactly what's going on, and they just have their 
intuition, or they're seeing some of these signs, they could call the 
national hotline, and we encourage them to call the national hotline. 
And to further answer that question, how do they do it, I'll give you 
three examples of how they have done it, because I think these are 
great examples, and they showcase other things.
    We had an Uber driver in Sacramento, California, who was providing 
a trip. Two women--adult women--had ordered a trip to a hotel, and they 
were traffickers. And they had a 16-year-old girl sitting in the front 
seat of that vehicle. And as he was driving them to the hotel, they 
were coaching her about what to do. They were coaching her about how to 
take the money from the person who had bought her. And as they got to 
the hotel, he let them out at the hotel and he pulled a little bit away 
from the hotel and called the police. So you asked about response--
quickly. The police got there, they were able to arrest both of the 
traffickers, who had ordered that trip as well as arrest the person who 
had purchased that girl. And so that was a quick response. He was 
recognized by NCMEC with a courage award--so the other component of 
this is that is we need to value and acknowledge those folks who are 
doing these things because they are heroes. Those are community heroes.
    So NCMEC did a great job of acknowledging and valuing that person, 
and we also try to play a part--whatever it may be--in fulfilling a 
need, but making sure that we acknowledge and value that driver when 
they do intervene in a situation like that.
    To give you another example of how they do it, we had a female Uber 
driver in Philadelphia, and a trafficker had purchased an airline 
flight for a young woman on a national airline, flew her to 
Philadelphia where he ordered an Uber to pick her up, and take her to a 
national hotel chain to meet the person who had bought her online. 
There's three components there, right--three times that there could 
have been an intervention. That female Uber driver was able to identify 
her as a victim of human trafficking and was able to call police and 
provide her aid, as well as help police with making an arrest on the 
trafficker who had sent her.
    Another example of how they do it is in Phoenix, Arizona, we had an 
Uber driver who--he was a retired Marine. He had just lost his job and 
just got a divorce. So he started driving for Uber to make some money, 
and he was living in a hotel. There was a trafficker also living at 
that hotel who approached him and said, are you an Uber driver? And he 
said yes. He said, I would like for you to do some transportation for 
me and transport some of my girls. And by that--by the information, the 
training that they had received--in all three of those cases--he 
contacted the police. He contacted the Phoenix police department, and 
they were able to use him in a sting, and he cooperated, and he was in 
an undercover sting to catch those traffickers and put them behind 
bars.
    In all three of those cases there were arrests made. So let me tell 
you that the other component behind the scenes is we have a law 
enforcement outreach team that consists of local and federal retired 
police officers who go around the country, as well as around the globe, 
and they meet with police departments to educate them on how police can 
use our technology as evidence to hold people accountable because that 
component is very important, and that's accountability. So it's 
important that we work with police, that we help them in not only 
having the evidence and the information they need, but to put these 
folks behind bars because that's where they belong for doing these type 
of things.
    So we do have a law enforcement outreach team that also works hand 
in hand with those detectives on those investigations and gets them the 
information that they need. In the Philadelphia case, they were able to 
get the information of somebody who had ordered that trip, or that 
girl, and helped identify that trafficker. So that's an important 
component of behind the scenes of how they do it, and how we're 
supporting law enforcement in making arrests in these cases.
    Ms. Smolenski. Can I say one more thing? I just want to pitch 
another idea about what to do to deter people from sexually exploiting 
children, especially during travel and tourism.
    When the first extraterritoriality law was passed in 1994--we 
started talking about this--the idea of posting some kind of signage or 
alert that it's against the law to exploit a child in every country, 
because some people traveling think it's okay if you do it in another 
country where they're poorer than us, et cetera. And so we've been 
seeking to get signage in U.S. airports in the outgoing areas--where 
all of those other warnings are posted--that says something about it's 
also against the law to exploit children everywhere, and citing the 
law.
    So been pitching that idea for a long time, and I'm just pitching 
it for this crowd, as well--just something to think about.
    Ms. Rivard. Oh, and I wanted to make one more comment real quickly 
about private sector. One action that any corporation can take is to 
provide jobs for trafficking survivors. You know, the airlines employ 
thousands of people that work as reservations agents. They work from 
home. These trafficking survivors could easily be trained. And many of 
them have children, they could work from home, and this is part of what 
they need to get their life back together, so it's an immediate first 
step to encourage corporations.
    Ms. Parker. Thank you all for your responses to that question. And 
we're running out of time, but we've got two questions from the 
audience. The first is from Saber Rock.
    Questioner. Good evening, everyone. My name is Saber Rock. I work 
for Airline Ambassador[s] as a country manager, plus I am subject 
matter expert for military forces in Afghanistan.
    So I have two questions, one question for Ms. Nancy. Do you have 
any connection in Afghanistan? Do you have plan to work for human 
trafficking in Afghanistan? Because our military forces in Afghanistan 
have a lot of problems for human trafficking there. The Taliban and 
ISIS, they are using kids against our military forces, against our U.S. 
military forces. They are doing suicide bombings. They are using many 
different things. So I brought that message. Please answer that.
    And from Uber, Ms. Tracey, a lot of the linguists--and I was the 
senior linguist of 10,800 interpreters in Afghanistan while I was 
working for General John Allen as a cultural advisor--the question is, 
a majority of the Special Immigrant Visa [SIV] interpreter who work for 
U.S. Government, they came by SIV to United States. In 50 states we 
have 11,000 families of interpreter, and the interpreter, they are--92 
percentage of the interpreter, they are driving Uber. Why? Because they 
didn't find any job, because they are the green card holder.
    Number 2, they're asking every day that why the Uber is not signing 
up or hiring us as a[n] employee? Because they can't buy house, they 
can't feed their kids, or they can't treat their family in Afghanistan 
as well because their family is in danger in Afghanistan. But they 
cannot afford that much money that they make from Uber. The living in 
the United States is very expensive, you know. They pay more than a 
thousand dollars rent per month. Plus, they have----
    Ms. Parker. Thank you. Thank you, Mr. Rock. We're running out of 
time.
    Questioner. Thank you so much.
    Ms. Parker. And the next question?
    Questioner. I just have a question for Uber. I think probably all 
of us ride Uber, and I've talked to a lot of my Uber drivers and asked 
them about trafficking and if they've been trained, and most of them 
kind of have a blank stare like, no, how do I do it? And I would like 
to know and have everybody know like how do you tell your Uber drivers? 
Is there a URL? Or what would they do to encourage Uber drivers to get 
the training? Because I think it's optional.
    Ms. Breeden. Well, to answer the first question, I'll--to be honest 
with you, I don't have a lot of background or knowledge on that. What I 
will tell you is that we--we're open to receiving information, 
learning, and listening, and open to doing better, wherever that might 
be. So I wish I had a better answer for you, but I don't in that space.
    To answer your question about training and about education for Uber 
drivers, I ask when I get in the vehicle, have you received the 
information about human trafficking? Do you know anything about human 
trafficking? And I'll find drivers that have not seen it. Or I'll find 
drivers that--just like when I was in LA the other day--who told me he 
had received it, and he was excited about receiving it, because I love 
taking those stories back to my executives, and the people who are 
making decisions around this to know that this is meaningful and it 
matters.
    So it is optional because, you know, our drivers are independent 
contractors, so it's very difficult as far as training being required--
that's an employer-employee relationship so it makes it a little 
difficult, but we're doing our best, and we're trying to do better in 
getting that information out in different ways. So some of the ways 
that we're doing it is through the in-app technology and sending 
information through the app, and trying to get them to engage and go to 
a driver resource page. And we have a driver resource page that lives 
24/7 for riders. We have a section where riders can learn more 
information, and we try to drive them to that information at times. So 
we try to drive them through our in-app technology and using that, as 
well, to get them to that place.
    And what I can tell you about that, what's really exciting about 
that is we've seen four times the engagement than what we've seen with 
Uber Ice Cream. So what does that tell me? That tells me that people 
want this information, that our drivers want this information. And it's 
a good thing to make it available for them.
    So we use our in-app technology. We're also trying to use driver 
appreciation events to raise awareness around this, so we're partnered 
with all the national partners and leaders in this space, and so we 
invite them to those driver events, as well as local organizations, as 
well as local law enforcement to help us educate our drivers, and try 
to bring them to an event where we celebrate them and encourage them to 
come in and hear more about it.
    And to be honest with you, we're listening and working with our 
partners, like how can we do this, thinking outside of the box. How can 
we get this information to our drivers through our technology? Because 
we have millions of drivers, millions of eyes and ears on the road out 
there that can be making impact and creating and making a difference in 
this space.
    So we're definitely listening, learning, and trying to think of new 
ways and innovative ways that we can use our technology, as well as 
using the old ways of doing things like inviting people with food, and 
inviting people and encouraging them to want to learn more about this, 
but we're also using that technology that we have to try to think of 
creative ways to get that information to them and get them interested 
in it about learning more.
    Ms. Rivard. And, Saber, to your question, we know that--well, both 
forced child marriage and child terrorism--suicide bombers are being 
recruited by the Taliban and ISIS. And we are planning a training in 
Kabul Airport. We're the first NGO to move in there and bring this 
issue public to empower women and awareness in Afghanistan. So we're 
looking forward to working on that with you.
    Ms. Parker. We are out of time. Thank you all for being here today, 
for sharing with us your expertise, and for what you do every day to 
keep our air, our streets, our hotels, our homes free from human 
trafficking.
    Please join me in thanking everyone here. [Applause.]
    If you've missed any part of this briefing, both the video 
recording and the transcript will be--and the testimonies will be 
available on the Helsinki Commission website. Thank you so much for 
joining us today.
    [Whereupon, at 4:19 p.m., the briefing was adjourned.]




  

            This is an official publication of the Commission on
                    Security and Cooperation in Europe.

                                       * * * 
                                       
                                       
                  This publication is intended to document
                  developments and trends in participating
                  States of the Organization for Security
                     and Cooperation in Europe (OSCE).

                                      * * *
                                      
           All Commission publications may be freely reproduced,
            in any form, with appropriate credit. The Commission
            encourages the widest possible dissemination of its
                               publications.

                                     * * * 
 
                            www.csce.gov       @HelsinkiComm

                 The Commission's Web site provides access
                 to the latest press releases and reports,
                as well as hearings and briefings. Using the
         Commission's electronic subscription service, readers are
            able to receive press releases, articles, and other
          materials by topic or countries of particular interest.

                          Please subscribe today.
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
